Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 13, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Candace Aguilera v. City of Colorado Springs

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on April 13, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following counsel for the Respondent:
Bryan E. Schmid, Esq.
Senior Assistant County Attorney
Office of the County Attorney for
El Paso County, Colorado
200 S. Cascade Ave.
Colorado Springs, CO 80903
(719) 520-7032
Email: BryanSchmid@elpasoco.com

RESPONDENT:
Anne Turner
30 S. Nevada Ave., Suite 501
Colorado Springs CO 80903
(719) 385-5909
Anne .Turner@coloradosprings. gov

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
'Sincerely,
Jack Suber, Esq.
Principal

RECEIVED

APR 1 5 2021
LISA KAY NICHOLSON
Notary Public
State of Maryland

K3

Sworn and subscribed before me this 13th day of April 2021.
, JJ

-

,

OFFICE OF THE CLERK
SUPREME COURT, U.S,

